No.
IN THE
SUPREME COURT OF THE UNITED STATES

RORY JOHN SWENSON, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition For V~Trit Of Certiorari
To The Supreme Court Of Illinois

PETITION FOR WRIT OF CERTIORARI
JAl~7ES E. CHADD
State Appellate Defender
THOI~~S A. LILIEN
Deputy Defender
Counsel of Record
ERIN S. JOHNSON
Assistant Appellate Defender
Office of the State Appellate Defender
Second Judicial District
One Douglas Avenue, Second Floor
Elgin, IL 60120
(847) 695-8822
2ndDistrict@osad.state.il.us
COUNSEL FOR PETITIONER

QUESTION PRESENTED FOR REVIEW
May speech that does not contain any expre~~ion ~f an intent to commit an act
of unlawful violence be criminalized as a "true threat" unprotected by the Fir t
Amendment simply because the listener finds the speech disturbing ?

TABLE OF CONTENTS
Que~ti~~n Presented fir Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . • . . . . • . i
Table <~f Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Opinion Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statement of Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Constitutional and Statutory Provisions Involved . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Reasons fir Granting the Petition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

10

The Illinois Supreme Court has expanded the definition of "true
I.
threats," a narrow category of speech unprotected by the First
Amendment, to criminalize non-threatening speech that disturbs the
listener. This Court should grant review to protect the First Amendment
rights of Illinois citizens and reaffirm its holding from Virginia u. Black,
that "true threats" are limited to those statements where the "speaker
means to communicate a serious expression of an intent to commit an act
of unlawful violence." . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
II.

Additionally, this Court should grant review because the Illinois
Supreme Court's holding allows for a criminal conviction based only
on communications made with a negligent state of mind, a standard
which offends the First Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

Cc>nclu~ion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . z2
INDEX TO APPENDIX
Appendix A: Illinois Supreme Court opinion affirming 1~1r. Swensun's conviction.
People u. Swenson, 2020 IL 124688
Appendix B: Appellate Court of Illinois opinion affirming Mr. Swenson's conviction.
People u. Su•Pnson, 2019 IL App (2d) 160690

ii

TABLE OF AUTHORITIES
Page
Constitutional and Statutory Provisions:
t?.S. Const. Amend. I . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
U.S. Cunt. Amend. XIS' . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
725 ILLS 5/26-1~a)~1)X2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17-18

Decisions by this Honorable Court:
~~i,rginia v. Blacl~, 538 U.S. 343 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 1.2, 14, 17
Elonis L'. United Sta.tPs, X75 U.S. i23 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 10, 15-19
R.A.V. ~~. City of St. Paul, 505 L1.S. 377 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Ashcroft u. American Civil Liberties Union, 535 U.S. 564 (2002) . . . . . . . . . . . . . . . 11
Cohen u. California, 403 U.S. 1~ (1971) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
B~ai~,I2arnai.s u. Illinois, 343 U.S. 2~0 (1952) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
~~'atts u. United States, 394 U.S. 705 (1969) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Morissette i,~. United States, 342 U.S. 246 (1952) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Other Federal court decisions:
United States u. Jeffries, 692 F.3d 473 (6t" Cir. 2012) . . . . . . . . . . . . . . . . . . . . . 15-16

State court decisions:
People u. Swenson, 2020 IL 124688 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passcni
People u. Swenson, 2019 IL App (2d) 160960 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . lU

iii

No.
IN THE
SUPREME COURT OF THE UNITED STATES

RORY JOHN SWENSON, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition For Writ Of Certiorari
To The Supreme Court Of Illinois

The petitioner, Rory John Swenson, respectfully prays that a writ of certiorari
i»ue to review the judgment below.

OPINION BELOW
The opinion of the Illinois Supreme Court is reported at People u. Swenson, 2020
IL 124G~SH. A copy of the opinion is attached as Appendix A.
JURISDICTION
On June 18, 2020, the Illinois Supreme Court issued an opinion. No petition for
rehearing was filed. This Court has jurisdiction over this matter pursuant to 28 U.S.C.
~1257(a).

-1-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The First Amendment to the United States Constitution provides:
"Cc~n~rc~,5 shall make no law respecting an ~~t~~hli~hment of religion, or prohibiting the
free exercise thereof; or abridging the freedom cif speech, oi• of the preG~: or the right of
the people peaceably tc-~ a~~emble, and to petition the Government for a redress of
grievances.
The Fourteenth Amendment to the United States Constitution provides,
in relevant part:
"Nn State shall...deprive any person of life, liberty, or property, without due procesti of
law....,,
Section 5/26-1(a)(1) of the Illinois Criminal Code [720 ILCS 5/26-1(a)(1)
(2015)] pi~c~vides:
"(a) A person commits disorderly conduct when he or she knowingly:
(1) Does any act in such unreasonable manner as to alarm or disturb another and
t~ provoke a breach of the peace;"

-2-

STATEME:~TT OF THE CASE
The petitioner, Rory Swenson, was charged with attempted disorderly conduct,
a Clays A misdemeanor, for attempting to transmit a threat against persons at Leith
Country Day School. (C. 11-13) The information also charged Swenson with telephone
haraG~ment, a Class B misdemeanor, for calling the director of admissions at Keith
School, and disorderly conduct, a Class C misdemeanor, for acting unreasonably during
a phone call with the director of admissions which alarmed and disturbed her and
caused a breach of the peace. (C. 11-13)
Mr. Swenson waived his right to a jury dial. (C. 33) ~ bench trial was held on
Oc~t~bez' 4, 2016. (R. 74-135)
At that trial, the State called 1~lichael Clark, an officer with the City of Rockfoid,
Illinois. (R. 59) Ofc. Clark testified that, on December 7, 2015, he was dispatched to a
home can Flintridge Court in Rockford to speak to Rory Swenson about a phone call he
had made to Keith Country Day School. (R. 60) Ofc. Clark was given the phone number
that had made the call to the school. (R. 63) When Ofc. Clark was outside of the
Flintridge address, he called that number. (R. 63) There was no answer but, about one
minute later, M~. Swenson came outside to speak to Ofc. Clark. (R. 63) Ofc. Clark
p~ltted Mr. Swenson down and found no weapons on him. (R. 64) Mr. Swenson admitted
that he had called Keith School and Mated he had called only to ask about security at
the school. (R. 64) Ofc. Clark asked Mr. Swenson to sit in his squad car and he complied.
(R. 64) Ofc. Clark later informed 1~1r. Swenson that he was under arrest. (R. 64) 1~7r.
Swenson was cooperative with Ofc. Clark throughout the interaction. (R. 66) After he
arrested 1~7r. Swenson, Ofc. Clark went into Mr. Swenson's apartment to retrieve 1~7r.

-3-

Swens~n's seven-year-old son. (R. 67) While inside the apartment, Ofc. Clark did not see
any weapons. (R. 6R)
Monica Ki~S~sztopa testified that she handles admissions at Keith Country Day
School in Rockford. (R. 71) On December 7, 2015, she received a voicemail on her office
phone from a man named Rory who stated he was interested in enrolling his son in the
school. (R. 72) The man left a number to call him back. (R. 72) Ms. Krysztopa called the
min back and spoke tc~ him about enrolling his on at Keith School. (R. 73) The man
identified himself as Rory Swen~un. (R. 75) He Mated his son was in second grade and
was attending public school. (R. 76)
Mr. Swenson then asked a series of questions about school security and school
shootings. (R. 7G) He wanted to know how prepared the school would be if he or an3~c~ne
clue arrived nn campus with a gun. (R. 76) :~1r. Swen,c~n eked numerous question,,
including whether the school hay bulletproof g1asG, where faculty members would stand
if there is a lockdown, if they are armed, and how they would defend themselves. (R. 76)
He mentioned the recent shooting in San Bernadino and asked Ms. KrySztopa if Keith
School way prepared if something like that happened on their campus that day. (R. 78)
He then asked Ms. Kr`-~zt~pa if she was prepared to have the "sacrificial blood" of the
l~linh, of hei school on her hands if something bad were to h~~ppen. (R. 78) NZs.
Krys~topa testified she took that statement as asking if she was prepared to have it on
her soul if something happened. (R. 78)
although Mr. Swenson spoke about guns during the call, Ms. KryGztopa testified
he never stated he had a dun. (R. 81) Mr. Swenson did mention the woods around
campus and that he had previously gone to school there. (R. 81) At that point, Ms.
'~

Kry~ztc~pa was nervous the person she way speaking to might be on campus and she
gent a me»a~e to the head of the school paying someone way talking about duns on
campus, and asked them to call 9-1-1. (R. 83) The school then went on a "soft
lockdown," which meant that the students all had to go into classrooms and be counted.
(R. 83) The school was dismissed 17 minutes Parly that day. (R. 83)
Ms. Krysztopa took notes on hex• phone call with Mr. Swenson, as she did for all
admi~sione calls. (R. 85) After refreshing her recollection with her notes, Ms. Krysztopa
recalled that the defendant asked an odd question; after talking about when child~~en
are shot and they lay their heads on their pillows, 1~7r. Swenson asked what that dies
for the school and how do we protect them from that. (R.86) He then asked Ms. Kr~yztopa
if she would "miff the pillow of their innocence." (R. 8f>) :~Zs. Ivysztopa was alarmed and
dititurhed by the phone call. (R. 88) However, she acknowledged that Mr. Swenson
never stated he was can campus, that he had a gun, or that he was coming to campus
with a gun. (R. 90-92)1~1s. Krysztopa testified that l~Zr. Swenson did not make a threat
against the school. (R. 94)
After presenting these witnesses, the State rested. (R. 103) The defense made a
motion for a directed finding. (R. 103) The trial court granted the defense motion as
to Count 2, telephone harassment, on the basis that the conversation took place when
1~1s. Krysztopa called NIr. Swenson back and Mr. Swenson did not make that phone call.
(R. 106) The court denied the motion as to the attempted disorderly conduct and
disorderly conduct charges. (R. 106)
Rorti~ Swenson then testified that he has an eight-year-old son named Jonathan
and, in December 2015, he was looking into private schools to which to transfer his ion

-5-

because he was concerned with the lack ~f security in Rockford public schools. (R. 108)
He gilled Keith Country Day School to inquire about thi, and received a call back. (R.
109) He did ask questions about the security at Keith, but he did not threaten ans~~~ne
and he never said that he would bring a dun to campus. (R. 111-112) Mr. Swenson
testified that he does not have a firearm owner's identification card and he does not own
any firearms. (R. 111-112)
Mr. Swenson acknowledged that he asked if the teachers at Keith School carried
firc~arm5. (R. 118) He said he asked this question because Keith is a private school and
he thought they may have increased Gecurity measures. (R. 118) He also stated he told
Ms. Kr3~sztopa that if the school fired some teachers and hired off-duty police officers,
the school could reduce casualties in the event of a school shooting. (R. 119) NTr.
Swcnsc~n denied that he asked l~T,. Krysztopa if she was prepared to have "5aci~ificial
blood" ~~n her hands; rather, he way talking to her about his investigation as to why
there are not more guns in school and that is when he said: "if the liberal left wants to
make me their sacrificial lamb so be it. Then the blood is on their hands next time there
i~ a school shooting in regards tc~ civil ramifications."(R. 120)
The tirial court found that there was no attempt nn the part of Mr. Swenson to
rely a threat to the school, school property, the teachers, or other students at Keith
School and therefore, Mr. Swenson was not guilty of attempted disorderly conduct fur
attempting to transmit a threat against a school. (R. 132) The trial court further found
Yh~t while there was nn threat,l~7r. Swenson's statements were unreasonable and f~~und
him guilty of cii~orderly conduct under 720 ILCS 5/26-1(a)(1). (R. 132)
The case proceeded to sentencing immediately after the trial was completed. (R.

135) l~'Ir. SwF~nSun was sentenced to 12 months probation and four da3-s in jail with
credit f~i• jail time he had already served. (C. 46, R. 141-143)
Mr. Swenson filed a motion for a new trial on October 28, 2016. (C. 49) That
motion alleged that the State failed to prove him guilty beyond a reasonable doubt and
that the verdict in the case was contrary to the law. (C. 49) Following the denial of the
motion, 1~Zr. Swenson appealed. (C. 52)
On appeal, 1~1r. Swen~un argued that he was not proven guilty of disorderly
conduct beyond a reasonable doubt because the State failed to prove he acted knowingly
to cause a breach of the peace. People u. Swenson, 2019 IL App (2d) 160960, ~~ 17-1J.
Specifica115~,1~1r. Swenson ar gued that, because he engaged in a telephone conversation
with M~. I~rysztupa in which he merely inquired about security at the school, and did
not ~•aise his voice or make threats, there was no evidence he knew or should have
known his conduct would cause a breach of the peace. Swenson, 2019 IL App (2d)
1F,0960 ~1¶ at 19-23. The appellate court found that, because Mr. Swenson's comment
were "mrn~bid" and "innappropriate" to the goal of learning about the school's security,
he should have known hip c~nver~~ation w~~uld disturb 1~Z~. Krysztopa znd cause a breach
of the peace. Swenson, 2019 IL r~pp (2d) 1609G~ 1J 24.
N1r•. Swenson further argued on appeal that, because his only conduct was speech
which was not lewd, profane, obscene, libelous, or threatening and was not "fighting
wuids," his conduct was protected by the First Amendment, such that the disorderly
conduct ~t~ltute cannot be read as criminalizing it. Swenson, 2019 IL App (Zd) 1GOJGO
¶ 24. The appellate court found that, although :~Tr. Swenson could reasonably inquire
about school security, because his manner of inquiry was not reasonable in that it was

-7-

"disturbing" and "morbid," his conduct was not constitutionally protected. Swenson,
2019 IL App (2d) 160960 ¶ 27.
The Illinois Supreme Court granted 1~7r. Swenson's petition for leave to appeal.
On appeal to the Illinois Supreme Court, l~'Ii•. Swenson argued that his statements and
queGtions during the telephone conversation constituted speech which was protected by
the First Amendment. People u. Swenson, 2020 IL 1246 8, ¶ 16. Afive-justice majority
of the Illinois Supreme Court disagreed. Swenson, 2020 IL 1246H~ at ¶ 30. The court
f~>und that because 1~Zr. Swenson pointed out "inadequacies in the security measure,
[the school] had taken had taken by presenting graphic hypothetical scenarios," his
speech constituted a "true threat" as defined by this Curt in Virginia u. Blaclz, 538 LTS
343, 359-60 (`L003). Swenson, 2020 IL 124688 at ¶ 30.
The majority also found that to make a "true threat" a defendant mint ~~ct with
either "specific intent ~~r a knowing mental state." Swenson, 2020 IL 124Gf~R at ¶ 3O.
Based on this Court's decision in Elonis u. United States, 575 US 723 (2015), the
majority stated it needed to consider the effect on the listener in evaluating whether a
~t~ltement was a "true threat.". Swenson, 2020 IL 124688 at ¶ 30. The court found that
Mr. Swen,on's questions regarding school security alarmed and diGturbed Ms.
Kry,ztopa and "the only way she would have been alarmed and disturbed is if she
perceived [Mr. Swenson's] questions and statements as a threat to the school's safety."
Su enson, 2020 IL 124688 at ¶ 31. Therefore, the majority found that the speech fell
wider the category of "true threats" which are unprotected under the First ~inendment.
Swenson, 20Z~ IL 124Gf~8 at ~~ 32.
Two justices dissented from this opinion. The dissent pointed nut that the

majority ignored both the context of Mr. SwenGon's communication, which was an
inquiry abut enrolling hip son in the school, a5 well as the content of hi, speech, which
was all hypothetical in nature. Swenson, 2020 IL 124G88 at ¶ 47. Further, the dissent
noted that the testimony of Ms. Kr5.5ztopa herself refuted that Mr. SwenSon's
conversation contained any threats. Swenson, 2020 IL 124688 at ¶ 46. The dissent
opined that "the majority has allowed the State to use the disorderly conduct statute
tc~ criminalize [Mr. Swenson's] speech because [the school administrator] wZ~ alarmed
car disturbed by his speech" and that, in doing so, "the majority has effectively
eliminated the well-settled requirement that a `true threat' include a serious expression
of an intent to commit an act of unlawful violence." Swenson, 2020 IL 124688 at ¶ 52
citing' Black, 538 U.S. at 359.

REASONS FOR GRANTING CERTIORARI
RorS~ Swenson was charged with di5~rderly conduct based on an allegation he
made stat~mentti and asked que~ticm~ during a phone call which alarmed and disturbed
Ms. Kr•ysztopa, director of admissions at Keith Country Day School in Rockford, Illinois,
and caused a breach of the peace. (C. 11-13) Despite the trial court's finding that Mr.
SwenGon made no threats during that phone call, he was convicted nn the basis that the
content of his conversation was "unreasonable." (R. 132) Likewise, the Second District
of the Illin~i~ Appellate Count upheld Mr•. Swenson's conviction without finding that hip
statements in the phone conversation constituted threats ur any other unprotected type
of speech because, the court said, although his concerns about school security may have
been reasonable, his manner of inquiry was not. People u. Swenson, 2019 IL App (2d)
160960 11 Z7.
:after reviewing the case, the Illinoia Supreme Court, contrary to both the tri~xl
and appellate courts, held that Mr. Swen~on's questions and statements du~•ing the
phone call did constitute a "true threat" as defined by this Court in Virginia u. Blaclz,
53~ U.S. 343, 359-60 ('L003), because by pointing out inadequacies in the school'
security and posing que,tions 1~1r. Swenson "communicated to the listener a `,erious
expression of an intent to a~mmit an act of unlawful violence to a particular individual
or• group of individuals."' People u. Swenson, 2020 IL 124688, 11 30, quoting Blaclti 538
U.S. at 359. The court reached that conclusion despite itG own recognition that M~.
Krysztopa testified Mr. Swenson did not make any immediate threats during their
convex•sation. Swenson, 2020 IL 124688 at ¶ 9. Further, the Illinois Supreme Court
f~~und that, pursuant to this Court's holding in Elonis v. United States, 575 U.S. 723

-10-

(2015), it needed to consider the effect of the speech on the listener. Swenson., 2020 IL
124688 at ¶ 27. The court then found there was sufficient evidence that :~Zr. Swen,on
knew his conversation would be taken as a threat simply becau,e he was calling a
school during the school day and Ms. KrS~sztopa was frightened by his statements.
Su~erzson, 2020 IL 124688 at ¶ ~ 30-31.
This Court should review the Illinois Supreme Court's c~piniun because it.
interprets Illinois' disorderly conduct statute in a manner that criminalizes speech in
direct contravention of this Court's juriGprudence with respect to the First Amendment
to the United States Constitution. U.S. Cc~nst. Amend I; Virginia v. Blac1~, 538 L'.S. 343,
358-79 (2003); R.A. V. v. City of St. Paul, 505 U.S. 377, 391 (1992). Illinois has expanded
the recognized definition of "true threats" to include any speech that is disturbing to the
listener. Further, the Illinois Supreme Court's opinion erronec~u~ly creates a negligence
standard where criminal liability for a statement is based only on the effect on the
listener without reference to the defendant's mental state. For both these reasons, this
Court should grant review.
I. The Illinois Supreme Court has expanded the definition of "true threats,"
a narrow category of speech unprotected by the First Amendment, to
criminalize non-threatening speech that disturbs the listener. This Court
should grant review to protect the First Amendment rights of Illinois citizens
and reaffirm its holding from Virginia u. Black, that "true threats" are limited
to those statements where the "speaker means to communicate a serious
expression of an intent to commit an act of unlawful violence."
[~]~ a general matter, the First amendment means that government hay nn
power to restrict expiessi~~n because of its mestiage, its ideas, its subject matter, or its
content." Ashcroft u. American Civil Liberties Union, 535 U.S. 564, 573 (2002)(internal
quotation marks omitted). Because Illinois' disorderly conduct statute is being used in

-11-

interpreted in
this cage tc~ punish conduct which i~ purely speech, the statute must be
Cont.
accordance with the First Amendment to the United States Constitution. U.S.
Amend. I, XIS'; Cohen L~. California, 403 U.S. 15, 18 (1971).
The First Amendment, applicable to the states through the Fourteenth
Amendment, provides that `Congress shall make no law . . .abridging the freedom of
speech." U.S. Const. Amend. I; U.S. Const. Amend. XIS'; R.A.V., 505 U.S. at 377. This
Court has interpreted the First Amendment as prohibiting criminalizing all but six
categories of speech. Virginia u. Black, 538 U.S. at 359; Beauharnais v. Illinois, 343 U.S.
250, 255-56 (1952). The only categories of speech that can be criminalized consistent
with the First amendment are speech that i~ lewd, profane, obscene, libelous, fighting
words, or a true threat. Blaclz, 538 U.S. at 359; Beauharnais, 343 U.S. at 255-56.
This Court has held that " `true threats' encompass those statements where the
,beaker means to communicate a seiious expression of an intent to commit an act of
unlawful violence to a particular individual or group of individual." Black, 538 U.S. pit
3~9 (2003). Political hyperb~~le does not fall into the category of "true threat." [Watts
t,. United States, 394 U.S. 705, 708 (1969).
Despite recognizing that the testimony of the school administrator in this case
way that N1t. Swenson made no threats to her or the school, the Illinois Supreme Court
found that 1~1r. Swens~~n's questions and statements during the phone call cc~n~tituted
a `'true threat" as defined by this Court in Black. Swenson, 2020 IL 124688 at ~~~J 9, 30.
Specifically, the majority opinion found that because l~~Tr. Swenson pointed out
"inadequacies in the security measures [the school] had taken had taken by presenting
graphic hypothetical scenarios," his speech communicated a "serious expre~~ion of an

-12-

intent to commit an act of unlawful violence to a particular individual or group cif
individuals." Swenson, 2020 IL 124688 at ¶ 30, quoting Blaclz, 538 U.S. at 359-60. This
finding i5 directly contradicted by its own factual recitation that acknowledges 1~7i•.
Swenson made no threat, but only asked questions and posed hypothetical scenarios
about school safety. Swenson, 2020 IL 124688 at ¶ 20. The Illinois Supreme Court used
the language of this Court in Black while completely ignoring its meaning.
H~i~e, there was no "serious expression of an intent to commit an act of unlawfiil
viole~nc~." The trial court specifically found that Mr. Swenson did not make any threat
and did nut intend tc► threaten the school. Swenson, 2020 IL 124688 at ~~ 30. Based on
the evidence presented, the trial court was correct. Mr. Swenson's conversation with Ms.
Kry~ztopa was not threatening. Indeed, Krysztopa herself recognized in her testimony
that l~'Ir. Swen~un was not making any threats. (R. 90-~J2, 94); Swenson, 2020 IL 1246~~
at ¶ 9. Yet, Mr. Swenson was convicted of disorderly conduct because he had a
cc~nversatic~n with Ms. Ki~S~sztopa about the security at Keith School during which he
inquired about the security protocols at the school and made statements about
appropriate measures Yo prevent school shooting,. (C.13; R. 76-92) Although the idea
of a school shouting maybe upsetting, it is clear from all the evidence that 1~Ir. Swenson
way making an inquiry about the school's policies and potential response to a school
shooting t~ inform his decision as to whether to enioll his son there and was expre~5ing
displeasure that the school did not have stricter security measures or armed guards tc~
protect the children.
As the dissent in this case x•eco~nized, a "review of Krysztopa's te~timc~ny
demonstrates that defendant never paid that he intended to do anything at ill."

-13-

Stcenson, 2020 IL 124688 at

¶ 48 (Neville, J., dissenting). Further, the dissent

recognized that 1~7r. Swenson, "a single father of a school-age child, expressed his
concerns about school safety and the security protocols in place in public schools that
were, in his view, inadequate to protect the ~tudent~." Swenson, 2020 IL 124G8~3 at ¶
48. Finally-, "[w]hile [:~1r. Swenson's] questions and comments maybe seen as exce~~ive
and troubling, they do not contain the requisite elements of a true threat." Swenson,
2020 IL 124688 at ¶ 49.
In it, opinion, the majority does not identify any statement made by Mr. Swenson
that threatened an act of violence against Ms. Kr3•sztopa or the school. Rather, the
majority concluded that because Mr. Swenson "pointed out what he perceived to be
inadequacies in the security measures [the school] had taken," his statement,
"communicated to [Ms. Kr3~sztopa] a `serious expression of an intent t~ commit unlawful
violence to a particular individual or group of individuals."'Swenson, 2020 IL 124688
~t '130, quoting Black, 538 US at 359-60. The court found that Mr. Swenson made a
true tht~eat, because he "conveyed hi, opinion about the insufficiency of [the school's
security] measures by frightening Kr5•sztopa." Swenson, 2020 IL 12 688 at ~~30.
In reaching its conclusion, the Illinois Supreme Court has expanded the
definition of a "true threat" from a "serious expreSGion of an intent to commit an act cif
unlawful violence" to any discuGsion about a sensitive subject that alarms and disturbs
~c~meune. The court's focus on the effect on the listener as the primary factor in
intex•pi°eting a threat disregards this Court's holding in Black and results in a holding
that contravenes the First Amendment. In Blach, this Court found that the intent tc,
threaten was essential to separating protected from unprotected speech. Black, 538 LJ.S.

-14-

at 365. This Court emphasized that intent to threaten is necessary because the very
same pct "may mean th~~t a per ion is engaging in constitutionally pro~cribable
intimidation [or] only that the person is engaged in core political speech." Blacl~, 538
U.S. at 365. Here, the fact that 1~7r. Swenson was expressing his opinions and concern
about the security at a school where he wished to enroll his son make, it clear he was
not making a "true threat" but was in fact engaging in speech protected by the First
amendment.
The Illinois Supreme Court's opinion in this case stands in direct contradiction
to this Court's jurisprudence concerning the "true threats" exception to First
Amendment protection. Under that opinion, any citizen of Illinois can be convicted cif
disorderly conduct pimply for engaging in a conversation that disturbs the other party.
~1s the dissent, observed, "[a]bsent a serious expression of an intent to commit an act
cif unlawfiil violence, however, even the most passionate speech cannot be cx•iminalized
as a true threat without violating the [F]irst [A]mendment." Swenson, 2020 IL 124GH8
at X151, citing Blacl~ 538 U.S. 359. This Court should grant review to reaffirm its
holding in Blaclz and clarify that states cannot criminalize speech merely because it
makes its listener uncomfortable.
II. Additionally, this Court should grant review because the Illinois Supreme
Court's holding allows for a criminal conviction based only on
communications made with a negligent state of mind, a standard which
offends the First Amendment.
As this Court observed, "`[h]aving [criminal] liability turn on whether a
`reasonable person' regards the communication as athreat—regardless of what the
defendant thinks—`reduces culpability on the all-important element of the crime to

-15-

negligence."' Elonis v. United States, 575 U.S. 723, 135 S. Ct. 2001, 2011 (2015), quoting;
United States v. Jeffries, 692 F.3d 473, 484 (6th Cir. 2012)(abrogated on other grounds).
Despite there being no evidence that Mr. Swenson had any knowledge that his
c~~nver,ation would be taken as a threat in this case, the Illinois Supreme Court
erroneously found that evidence of 1~7s. Kry~ztopa's reaction t~ the con~-er~~tion al~~ne
was sufficient to impose criminal liability for Mr. Swen~on's speech.

The Illinois

Supreme Court's holding reduces the mental state to negligence, which is inconsistent
both with the "knowing" standard needed for criminal liability and the First
Amendment protection of speech.
In Elonis, this Court addre~~ed whether the federal ban can making; threatening
communications, 18 U.S.0 § 875(c), included a requirement that the defendant be aware
of the threatening nature of the communication and whether, if it did not, the First
Amendment nevertheleGs required such knowledge. Elonis, 135 S. Ct. at 2004. In that
c~i~e, because the statute was silent as to the required mental state, the district couit
instructed the jury that the defendant had to "intentionally make the statement."
Elonis, 135 S. Ct. at 2004-07. However, it also instructed the jury that the defendant
did not have to intend or know that the communications would be understood by the
recipient as threats. Elonis, 135 S. Ct. at 2004-07. Instead, the jury was instructed it
should c~~nvict if it found the statements were such that "a reasonable persc.~n would
fc>re~ee that the statement would be interpreted by those to wham the maker
communicates the statement as a serious expression of an intention to inflict bodily
injury or take the life of an individual." Elonis, 135 S. Ct. at 2007.
On review, this Court fund that the trial court had read atoo-weak ~~zen.s rea

-16-

into the statute. 135 S. Ct. at 2008-12. The speaker's knowledge that he made the
communication was not enough. Elonis, 135 S. Ct. at 2011. V~'here the instruction relied
on what a "reasonable person" would foresee as to how the statement would be
interpreted by its audience, it set out a mental state of negligence. Elonis, 1~i5 S. Ct.
at 2011. This Court held that a negligent mental state was an unacceptable option,
insufficient "to separate wrongful conduct from otherwise innocent conduct." Elonis, 135
S. Ct. ~t 2010-11.
Your Honors found that, in order for a defendant to be criminally liable f~~r hip
statements under the statute in question, there must be proof either that he made the
communication with the intent to threaten or knew that it would be viewed as a threat.
Elonis 135 S.Ct. at 2012. Based on the finding that this knowing mental state was
TPC1L11T~~d

f~~r criminal liability under the statute, this Court found that it did not need

to address any First Amendment issues that might arise if the statute were read t~~
allow for• liability based on a negligent mental state. Elonis, 135 S. Ct. at 2012.
Elonis did not mike an express constitutional holding. This Court avoided any
First Amendment queGtion by reading a "knowing" mental state into the statute. Elonis,
135 S. C't. at 212 Nevertheless, Elonis provides clear guidance as to the kind of mental
State that i~ required under a penal statute in order to avoid conflict with the First
amendment. Elonis, 135 S. Ct. at 2012. This Court expressly found that a mental state
of negligence was insufficient for criminal liability under the statute. Elonis, 135 S. Ct.
at 2011. Further, this Court found proof of either intent to threaten or knowledge the
communication would be viewed as a threat obviated any First Amendment concerns.
Elortis, 135 S. Ct. at 2012.

-17-

Here, the Illinois statute at issue did require knowing conduct. 725 ILCS 5/261(x)(1)(2015). However, despite recognizing that a "specific intent or a knowing mental
Mate" was required in this case, the Illinois Supreme Court effectively found that a
defendant may be convicted cif the crime of disorderly conduct based only on the effect
his words had on the listener. Despite labeling it a knowing mental state, the Illinoi,
Supreme Court's opinion established a negligence standard which i~ insufficient for
criminal liability and in conflict with the First Amendment.
The Illinois Supreme Court recognized in its opinion that in order to make a true
threat, Mr. Swenson mint have acted with either a "specific intent or a knowing mental
state," which means that he had to be "subjectively aware ~~f the threatening nature of
the speech." Swenson, 2020 IL 124688 at ¶ 27. The court then stated that while
liability for speech cannot be based solely on its effect on the listener, the effect on the
listener must be considered. Su.enson, 2020 IL 124688 at ¶ 27, citing Elonis v. United,
StatE~s, 135 S. Ct. at 2011-12. However, despite recognizing that criminal liability for
speech cannot be based solely on the effect of that speech on the listener, the court then
found that 1~7r. Swenson's phone convet~sation was a true threat based only on what it
perceived as Ms. Kr3~sztopa's reaction to the conversation.
Here, there was no evidence that Mr. Swens~~n had any intent to thieaten or
knew that his statements would be viewed a~ a threat. In fact, Ms. Kr•ysztopa testified
that Mr. Swenson did not make a threat against the school and the trial court found
that Mr. Swenson did not intend to threaten the school. Swenson, 2020 IL 124G88 at
~~Z9. As acknowledged by the Illinois Supreme Court's opinion, during the telephone
conversation Mr. Swenson only asked questions and posed hypothetical scenarios about

school safety. Swenson, 2020 IL 124688 at ¶20.
De,pite the lack of evidence that showed Mr. Swenson knew his questions and
statements would be viewed as a threat, the Illinois Supreme Court found that Mr.
Swenson was "subjectively aware of the threatening nature of his speech." Swenson,
2020 IL 124688 at ¶ 32. In support of that position, the court asserted the "statement
are objectively threatening given the circumstances in which they were made."
Swenson, 2020 IL 124688 at ~; 31. The court opined that because the statements were
made to NTs. Krysztopz during the school day in an era when school shootin~;~ are
concern, those circumstances made the questions and 4tatement~ threatc~nin~;.
Swenson, 2020 IL 124688 at ¶31. However, this reasoning reduces a knowing mental
to a negligent mental state, a mental state which Elonis recognized to be incompatible
with the First Amendment.
In Elonis, the government claimed that the mental state would be sati~fic~d if the
defendant knew the words used in and the circumstances surrounding his
communication. Elonis, 135 S. Ct. at 2011. This Court found that by focusing on the
"circumstances known" to the defendant the government way still proposing a
negligence standard. Elonis, 135 S. Ct. at 2011. Requiring only that the defendant know
the c~~ntents and context of his communication, and that a reasonable person would
have recognized that communication as a genuine threat, reduced criminal li~ibility to
a negligence standard. Elonis, 135 S. Ct. at 2011. This Court found that such a
n~~gli~ence standard was insufficient because, "wrongdoing must be conscious to be
criminal." Elonis, 135 S. Ct. at 2011, quotingll~7orissette u. United States, 342 L'.S. 24G,
z~2 (152).

-19-

In its opinion, the Illinois Supreme Court erroneously uGed a negligence standard
t~~ establish criminal liability by focusing only on what a reasonable per~~n in AZs.
Kry~~tc~pa', position would think of 1~7r. Swenson's statements and que~ti~n5. although
.'GIs. Iu~y~ztopa testified that Mr. Swenson did not make any threats (R. ~4), the
majority's opinion emphasized that she way alarmed and disturbed by his statements
and questions. Swenson, 2020 IL 124688 at ¶ 31. The court stated that "the only wa r
[Ivysztopa] would have been alarmed and disturbed is if she perceived [Mr. SwenGun's]
statement, and questions as a threat to the school's safety." Swenson, 2020 IL 124688
at ~; 31. In so holding, the court disregarded both the evidence relating to 1~1r. Swenson's
knowledge and Ms. Krysztopa's actual testimony as to how Ghe perceived the
statements to zllow for a conviction ba,ed on negligence. The majority cemented its
belief that Mr. Swenson could be held criminally liable for negligently making
statements perceived by others (or more specificall3~, by the Illinois Supreme Court
it~cl~ to be threatening, by stating that 1~'Ir. Swenson "knowingly engaged in a serie,
of questions and statements that....he knew or should haLP known would cause alarm
to a school administrator." Swenson, 2020 IL 124688 at ¶4~. (emphasis added). "Knew
car should have known" is a negligence standard.
It is clear that, despite recognizing that this Court's holding in Elonis means
liability cannot be based solely on the effect of speech on the listener, the Illinois
Supreme Court is allowing for just that. This impermissibly reduces criminal liabilty
to a negligence standard. This Court should grant review tc~ prevent criminal
convictions based on negligent communications and hold that such a standard is
inconsistent with the First Amendment piotectic~n of speech.

-20-

A~ the dissent in thi, case recognized, "the [F]irst [A]mendment broadly protects
the ri~;ht~ of all citizens to en~a~e in meaningful discussion and debate on important
~ucic~tal issues, such ~~ the question of whether a school i, adequately prot~cting~ it,
students from the dangers of a potential mass shooting." Swenson, 2020 IL 124688 at
1140. In this case, Illinois has expanded the meaning of "true threats" to allow fir a
criminal conviction based on anon -threatening conversation about a sensitive topic
meiely because it disturbed the listener. This Court should grant certorari in order to
protect the First Amendment rights of Illinois citizens and confirm that applying a
negligence standard to pure speech contravene the First amendment.

-21-

CONCLUSION
Fir the fore~oin~ reason, petitioner•, Rory John Swenson, respectfully prays
that a writ of certi~~rari issue to review the judgment of the Illinois Supreme Court.

Respectfully submitted,

THO1~ZaS A. LILIEN
Deputy Defender
Counsel of Record
ERIN S. JOHNSON
AGsistant Appellate Defender
Office of the State Appellate Defender
Second Judicial District
One Douglas Avenue, Second Floor
Elgin, IL 60120
(847) 695-822
2ndDi~trict 2o~ad.state.il.us
COU:~TSEL FOR PETITIONER

-22-

APPENDIX
A

Rec 6/18/2020
2020 IL 124688

IN THE
SUPREME COURT

OF
THE STATE OF ILLINOIS

(Docket No. 124688)
THE PEOPLE OF THE STATE OF ILLINOIS. Appellee, v.
RORY SWENSON, Appellant.

Opinion rlecl.lurte I ~4, 2020.

JUSTICE GARMAN delivered the judgment of the court, with opinion.
Chief Justice Anne M. Burke and Justices Karmeier, Theis. and Michael J.
Burke concurred in the judgment and opinion.
Justice Neville dissented. with opinion, joined by Justice Kilbride.

OPINION
~ 1

Defendant Rory Swenson was convicted of disorderly conduct in the circuit
court of Winnebago County after a telephone conversation with the advancement
di~•ector of a private school. In that call, he asked about the schoul's security
measures and spoke extensively about shootings and violence. The conversation

caused a soft lockdown at the school and a police response. We are called on to
decide whether defendant's speech was protected by the first amendment to the
l'nited States Constitution.

~~', 2

BACKGRO[;~ID

~' 3

On December 7. 2015, defendant placed a call to Keith Country Day School
(Keith), a private school in Winnebago County. He left a message for the director
of advancement. When she called him back, he asked questions and gave statements
about ~chuul security, mass shootings, and gun violence. These questions and
statements disturbed and alarmed the director, who texted another admini,trator to
call the police and lock down the school. Defendant was arrested and eventually
charged with attempted disorderly conduct (720 ILCS 5!8-4(a). ~6-1(a)(3.5) (West
2U 14)), phone harassment (icl. § 26.5-2(a)(2)), and disorderly conduct (id. ti 26(a)(1)). The case proceeded to a bench trial.

~? 4

The State called two witnesses. The first was the police officer who was
dispatched to defendant's home to investigate the call He testified that he called
defendant, who did not answer but came outside within a minute of the office~~'s
call. He said that defendant admitted calling the school to ask about security. He
testified that he arrested defendant for disorderly conduct and placed him in the
hack of his police cruiser. He agreed that defendant was at all times cooperative
and that defendant had also told him that he was trying to get infiormation about the
school because he was considering transferring his son there. He stated that, after
he arrested defendant, defendant asked him to go into his apartment to get
defendant's seven-year-old son, who was inside. He testified that defendant told
him, after he asked, that he had no guns in the apartment and that he did not see any
in plain view when he entered.

'~ '~ 5

The director of advancement. Monica Krysztopa. testified that she handles
admissions, fundamental needs, and alumni relations at Keith. She stated that she
had been at the school for a year and a half and that she fielded calls from parents
looking to enroll their children at Keith. She testified that she returned to her office
to a message from a man named Rory who asked her to return his call regarding
admissions at Keith. She called the number left in the voicemail, and the individual
who answered identified himself as defendant. Defendant stated that he had a son

-2-

that he would be interested in enrolling at Keith. She stated that defendant then
"immediately went into a battery of questions about the protocol at our school fn►•
handling things that were related to guns and shooting." She testified that he asked
such questions as whether the secretary's desk had bulletproof windows and how
prepared she would be "if he or anyone ***arrived on our campus with guns." She
testified that he also "mentioned *** in passing that the United States was full of
socialists and KGB members." He asked if the school followed truancy laws.
~? C

Kry~ztopa stated that defendant mentioned the mass shooting in
San E3ernardino. ~~hich she testified was a week prior to the call. She testified that
defendant asked her if she knew the number of shootings or the success rate of
shooters once they were on campus. She said that he told her that it would be
important for the school to know the success rate when an armed individual was on
campus. She stated that he asked her, "[I]s Keith prepared? You know
San Bernardino had happened the week prior and were we prepared for that, that
day f ad it happened at our school that day." The statement that stood out most to
her was when he asked her if she "was prepared to have the sacrificial blood of the
lambs of our school on our, on my hands, if this were to happen and what would
do?'' She interpreted that question as asking her if she was prepared to have that
bl~~ud on her soul or on her person. V~'hen asked to say exactly what defendant said
about entering the school with a gun himself, as closely as she could, she testified
that "[h]e said if he were to show up at the campus with a gun what mould be the
protocol of our school?" He asked, according to Krysztopa, whether the school gave
teachers "PEZ dispensers to defend themselves" and ~~hat the students would think
"of seeing a gun pointed in their teacher[']s face."

"7

According to Krysztopa. he continued by asking "if teachers were prepared t~
have a gun in their face" and ~~hether they carried guns. "[H]e talked about a
number of guns and their success rate in kill." She stated that he asked her '`ho~a~
long it would take the police to get to Keith School should there be a shooting."
Her "impression was, to be perfectly honest, that he was on our campus." She
testified that she got that impression based on two specific questions: "the one about
me being prepared to have the blood of the sacrificial Iambs on my hands that day
and if we were prepared to handle] something like San Bernardino that day. And
he ~poke of the ~~oods around the campus." After refreshing her recollection with
her notes, Krysrtopa testified that defendant

-3-

"was talking about when you shoot and kill children and you're I~oking them
in the eye and their innocence and the pillows of laying their heads down at
night and then you have a shooter who shoots them in the face, you know, what
does that do for me as a school? How do we protect them from that?''
She thought that he "wanted to know if [she] would sniff the pillow of their
innocence after they've been dead." At the end of the conversation. Krysztopa said
that defendant asked if the conversation was being recorded. She said that she "was
trying to be light" and told him that "we have copiers that don't even work in our
school. I'm not recording this.'' She said that he "went on and said, again, asking
about our protocol, how we handle shooters *** and t was talking with him [when]
he did say he had to go, the conversation was done and he hung up."
8

Krysztopa testified that, during the cunversation, she texted the head of the
school, telling her "[t]here's someone talking about guns and the safety of the
school, call 91 1 ." Someone called 91 I ,and the school went into a soft lockdown,
which she described as a situation in which students were put into closed
classrooms with an adult present to account for each student and determine a count
of the entire student body. She stated that this was the only time the school had
entered a soft lockdown in the year and a half that she worked there. V~ ith an officer
dispatched to defendant's home and two officers on campus, she testified that.
because it was close to dismissal time. they dismissed the students. Fifiteen minutes
after dismissal, the school sent a letter to parents informing them that a threat had
been made without going into detail about the threat. She later clarified that she
initiated the police contact for two reasons: (1) because she thought defendant was
nn the campus, which she posited would mean there was an active shc,oter on
campus, and (2) because she did not know why defendant shared with her that he
had been kicked out of Keith as a child, which led her t~ think that he was an active
shooter on campus.

~? 9

On cross-examination. Krysztopa agreed that the voicemail stated that
defendant was interested in talking about admissions and potentially transferring
his son to Keith. Vb'hen she called him, he told her that his son was in second grade
and that he was looking to transfer him from Rockford Public Schools. She testified
that he mentioned "that he was concerned abort the security protocols in the public
schools.'' She did not know any other intention for the call than defendant's

-4-

intention to transfer his Son from the public school to a private school. She said that
defendant never told her that he had guns nor did he say he was coming to the
school with guns: rather, she agreed, "[h]e asked what ~~ould happen if someone
came to the school with a gun." She stated that defendant did not make an
immediate threat.
¶ 10

At the close of the State's case, defendant moved for a directed verdict on all
counts. The trial court granted that motion as to the phone harassment charge but
not the disorderly conduct or attempted disorderly conduct counts.

'I I I

Defendant testified that his son was seven years old at the time of the call and
that he was enrolled in second grade at a public school. He testified that he was
concerned with security in the public school system and considered enrolling his
son in "what [he] believed would be a privatized institution of learning where they
weren't bound by budgeting restrictions used as an excuse not to protect our
children." Keith was the first on his list, followed by two religious schools. He
stated that he called Keith and received a call back from Krysztopa. He continued
that he "asked [about] two things": "financial aid because I'm a single parent"' and
"the security protocol." Information about these two things, he said, was the
purp~tie of his call. Regarding the security protocol, he asked if Krysztopa could
even talk to him about it o~~er the phone: "[i]f need be. «hen 1 come to till out the
financial aid information, I can talk to you about it then is exactly what I said to
her.'" He said that he told Kry sztopa that his intent was to enroll his son in the school
and that he included that statement in the voicemail message. He stated that he
"absolutely" did not threaten anyone and that he '`absolutely" did not say that he
was going to bring a gun to the school. He testified that he did not have a Firearm
Owner's Identification card oc own any weapons and that he told this to the
t•esponditlg officer. He alsu testified that he allowed the offiicer into his home.

'' 12

On cross-examination, defendant testified that he asked about the school's
programs, such as whether they "still taught foreign languages for young children"
and '`[i]f they still had the art room." He said that he asked about the curriculum but
not about the students' schedules. He said that "if there was a security protocol
issue with me talking to her over the phone that 1 would be more than willing to
come in and talk with her w-hen I fill out the financial aid papers for the financial
aspect of enrolling my son in the school." He admitted that he asked whether

-5-

teachers carry guns, but he denied asking whether he would be shot and killed if he
came into the school and started shooting. He also denied asking what a child"s life
vas worth and ans~~ering himself that a child's life ~tias worth $67,000. Rather, he
testified, he explained that "if they would fire a teacher fora $67.000 salary cap
and hire an off-duty police officer that they ~uuld be able to protect children with
a ►~esponse time ~~hich would lower the casualty rate by 73 to 86 percent should
there be an active shooter scenario at any school." He again denied asking what
w~~uld happen if he were to enter the school with a gun. In response to a question
asking whether he said that it would take two to four minutes for police to arrive at
the school, he explained that "general protocol foc my son's school that atwo- to
four-minute -response time was inadequate for what I thought should be my job as
a parent to protect my son at school when t am not there to be able to do that." He
also denied asking Krysztopa if she was ready to see the blood of the sacrificial
Iamb, claiming that he said "if the liberal left ~tants to make me their sacrificial
Iamb so he it. Then the blood is on their hands next time there is a school shooting
in regards to civil ramifications.'' He also explained that his concern ~ ith his son's
current school was that "nothing more than a piece of quarter inch glass separates
our children *** from an active shooting scenario.'' After agreeing that Keith was
the fi rst school that he called, he stated that he also called the two religious schools
in the time between leaving a message at Keith and receiving the call back.
Defendant testified that, when the police arrived, he went outside to "see what was
going on'' and, ~~hen asked by the officer, explained that he "called to enroll my
son in a school and [Krysztopa] took [defendant's] political aftiliation and spun it
out of context."
3

After closing argument, the trial court found all three witnesses to be credible.
It found that, where defendant's and Krysztopa's testimony conflicted, hers was
more credible. Regarding the attempted disorderly conduct, the court found that
defendant did not make a threat and acquitted him of that charge. Regarding the
disorderly conduct charge, the court again stated that it did not think that defendant
was threatening the school but found that he acted in an unreasonable manner. The
court i~~und that Kryszt~pa was alarmed and disturbed and that defendant should
have known that she would he disturbed. The judge expressly found that the
unreasonableness was in the nature of the questions defendant asked. He further
found that defendant knowingly acted unreasonably and convicted him of
disorderly conduct. Defendant was sentenced to two days in jail with credit for two

days served, a term of probation. and a fine. The appellate court affirmed. 2019 IL
App (2d) 160960, ¶ 29. Vl'e granted leave to appeal. IIL S. Ct. R. 315 (eff. July 1 .
2018).

~` 14

ANALYSIS

~i 15

Defendant was convicted of disorderly conduct. "A person commits disorderly
conduct when he or she knowingly: (I) Does any act in such unreasonable manner
as to alarm or disturb another and to provoke a breach of the peace[.]" 720 ILLS
5/~fi- I (a)(1) (West 2014).

¶ 16

Defendant asserts that the only conduct in which he engaged was speech. He
argues that his speech was protected by the fi rst amendment to the L;nited States
Constitution, that the courts below misunderstood the requisite mental state, and
that the appellate court incorrectly applied this court's decision in People v. Raby.
40 III. 2d 392 (1968). We first address defendant's contentions of first amendment
protection.

~~ 17

First A~~~cndment Protection

~ 18

"The fi rst amendment, which applies to the states through the fourteenth
amendment, precludes the enactment of laws 'abridging the freedom of speech.' "
Pennle v. Rcle~fo~•cl. X017 IL 121094, ~' 31 (quoting U.S. Const., amends. 1, XIV).
Because of this restriction, the " 'government has no power to restrict e~.pression
because of its message, its ideas, its subject matter, or its content.' " ~.'nrle~l Stoles
v. Alvarez. 567 U.S. 709, 716 (2012) (quoting Ashc~•uft r. Amcricun C'il~rl Lihc~•Irc~s
Unron. 535 U.S. 564. 573 (2000).

~~ 19

The constitutionality of a statute presents a legal question that we review
de novo. People ex rel. Hartrich v. 2010 Harley-Davidson, ?Ol 8 IL 121636, ¶ 13.
The trial court's underlying credibility and factual findings, ho~~~ever, are reversed
only if they are against the manifest weight of the evidence. Id. Defendant does not
claim that the statute is facially unconstitutional but instead makes an as-applied
challenge. which "asserts that the particular acts which gave rise to the litigation
fall outside what a properly drawn regulation could cover." Vuugnruirx v.

-7-

Dc~l~urlmc~nt of P~•ofessronal Regulal~iorr, 208 llL 2d 173, 191 (2003). In an asapplied challenge, the challenging party "protests against how an enactment was
applied in the particular context in which the [party] acted or proposed to act, and
the facts surrounding the [party's] particular circwnstances become relevant."
,'~'upleton v. Villugc~ of Hrnsdule. 229 IIL 2d 296. 306 (2008).
1j 20

Vb'e first consider ~ hether defendant's discussion ~ti ith Kra szwpa constituted
speech or expression as contemplated by the first amendment. Although defendant
ostensibly called to inquire about enrolling his son at Keith, he asked rhetorical
questions such as whether Krysztopa would sniff the pillows of schoolchildren's
innocence if they were shot. He told the responding officer that K►ysztopa "took
[hisJ political affiliation and spun it out of contest."Although we do not duubt that
defendant indeed called to gather information and potentially enroll his sun at the
school sometime in the future, he also intended some of his questiuns and
statements to express his sentiments about the state of school security in general, at
Keith, or both.

21

Moreover, ~e agree that defendant did not engage in any conduct ether than
speech. In Raby. this court held that "[u]nder no circumstances would the
[disorderly conduct] statute `allow persons to be punished merely for peacefully
expressing unpopular views.' " Raby. 40 [IL 2d at 397 (quoting Cox v. Louisiana,
379 U.S. 536, 551 (1965)). Our appellate court has cited this statement to support
what it calls "the long-standing principle that speech alone cannot furor the basis
for a disorderly conduct charge." Peo~[e v. Rokicki. 307 lll. App. 3d 645, 652
(1999). Another panel stated the holding more accurately: "[i]n Ruby, our supreme
court rejected the proposition that the disorderly conduct statute punishes speech
protected by the first amendment." Peo~lc v. .'~'itz, 285 111. App. 3d 364, 369 (1996).
Because the only action in which defendant engaged was speech and because the
disorderly conduct statute cannot criminalize protected speech, defendant's
cony fi ction can stand only if his speech was unprotected.

~i 22

Ow• first step is to determine whether the statute. as applied to defendant, is a
content-based speech restriction. "Government regulation of speech is content
based if a law applies to particular speech because of the topic discussed or the idea
or message expressed." Reed v, ToH~n of Gilbert, 576 U.S.
__. 135 S. Ct.
2218, ~2~7 (~Ol 5). A statute restricting speech is content based if "it is the content

of the speech that determines whether it is within or ~ ithout the statute's blunt
prohibition." Ca~~ey v. 13~~01~ n, 447 U.S. 455, 462 (1980); see also Pc.~ople l~. Jonc:.5,
188 [II. 2d 352, 358 (1999) (citing Cary, 447 U.S. at 462). There is no question
that it was the content of defendant's speech that alarmed and disturbed Krysztopa.
He could have asked about school lunches, classes, asbestos pipes, tuition, the
school day, or just about any other subject, and she would not have become alarmed
and disturbed. It was the topic of guns, violence, and school safety—the content of
his speech—that led to the alleged breach of the peace.
~' ?3

24
¶ 25

"Content-based laws—those that target speech based nn its communicative
content—are presumptively unconstitutional and may he justified only if the
government proves that they are narrowly tailored to serve compelling state
, 135 S. Ct. at 2226 (citing R.A. U. v. .St. Puul, 505
interests." Reed, 576 V.S. at
U.S. 377, 395 (I 992)). There exist, however, " 'certain well-defined and narrowly
limited classes of speech, the prevention and punishment of which have never been
tf~ought to raise any Constitutional problem.' " Bcuz.iharnur.s v. Illinois. 343 U.S.
250. 255-56 (1952) (qu~~ting C'huplinslcv i'. .'~'eN~ Hc~mpshir~~. 315 U.S. 568. 571-72
(I 942)). Content-based restrictions on these categories ~f speech do not fiall w ithin
the protection of the first amendment and have been upheld. People v. A.tihley. 2020
IL 123989, ~` 31 (citing L'nitecl States v. Stevens. 559 U.S. 460, 468 (2010)). Of the
handful of exceptions, only two could potentially apply here: the "true threats"
exception (Virginia v. Black 538 U.S. 343, 359 (2003); Ashley, 2020 [L 123989,
¶ 3 I) and the "fighting words" exception (Beauharnars, 343 U.S. at 256).

The True Threats Exception to First Amendment Protection
The '`accepted categories of unprotected speech include true threats, which may
be banned without infringing on first amendment protections.'' Ashley, 2020 IL
123989. ¶ 31. " `True threats' encompass those statements where the speaker means
to communicate a serious expression of an intent to commit an act of unlawful
violence to a particular individual or group of individuals." Bluck, 538 U.S. at 359;
~lshlc~y, 2020 IL 123989, ¶ 33. " 'The speaker need not actually intend to carry out
the threat. Rather, a prohibition on true threats "protect[s] individuals from the fear
of ~~iolence" and "from the disruption that fear engenders." in addition to protecting
people "from the possibility that the threatened violence will occur." ' '' Ashle~~,

020 IL 123989. ~ 33 (quoting Block, 538 U.S. at 359-60, quoting R.A. G'. , 505 U.S.
at 388).
~` 26

We first note that the trial court acquitted defendant of attempting to threaten
the school or its employees. That charge is not before us. In convicting him of
disorderly conduct, the court stated again that it knew '`[he] wouldn't threaten
them." In cases in which "the question is one of alleged trespass across the line
between speech unconditionally guaranteed and speech which may legitimately be
regulated.'" however, "the rule is that wz examine for ourselves the statements in
issue and the circumstances under which they were made to see . . .whether they
are of a character which the principles of the First Amendment, as adopted by the
Due Process Clause of the Fourteenth Amendment, protect.'' (Internal quotation
marks omitted.).'4'ei~~ York Times Co. v. ,Sullivan, 376 U.S. 254.285 (1964); see also
,11ill~~r v. Culifoi~niu, 413 U.S. 15, 25 (I 973) ("[T]he First Amendment values
applicable to the States through the Fourteenth Amendment are adequately
protected by the ultimate power of appellate courts to conduct an independent
review of constitutional claims when necessary."); BoSc~ C'o~p. v. Consumers Unrovr
of United StuteS•, Inc., 466 l,'.S. 485. 510-1 1 (1980 ("The requirement of
independent appellate review reiterated in ~'~'ei~~ York Times Co. v. Sullivan is a rule
of federal constitutional law. *** It reflects a deeply held conviction thatjudges—
and particularly Members of [the Supreme Court]—must exercise such review in
order to preserve the precious liberties established and ordained by the
Constitution."). We thus independently examine the record and assess the
testimony to determine whether a first amendment exception applies.

~` 27

The parties, noting the split among other jurisdictions, disagree as to the mental
state requirement for cony-eying a true threat. After submission of their briefs and
oral argument, however, we have resolved that issue in Illinois. We recently held
that. to make a true threat, a defendant must act with either a '`specific intent or a
knowing mental state." Ashley, 2020 IL 123989, ~` 55. Thus, the accused does iwt
have to act with specific intent to threaten the victim (id. ~` 50) but "must be
subjectively aware of the threatening nature of the speech'' (id. ¶ 56). Although
criminal liability cannot be predicated solely on the effect on the listener, the effect
is something the court must consider. Id. ~ 67 (citing Elonis v. United .Stoles, 575
, 135 S. Ct. at 201 1-12). Given the recency of that opinion, ~e need not
U.S. at
repeat its reasoning.

~1

~T 28

Kryszt~pa testified that defendant asked her if she was "prepared to have the
blood of the sacrificial Iambs on [her] hands that day." (Emphasis added.) He asked
"if teachers ~~ere prepared to have a gun in their face." He asked her "how long it
would take the police to get to Keith School should there be a shooting." He
expressed familiarity with the school campus and asked how prepared she would
he "if he or an}one *** arri~~ed nn cur campus ~~itl~ guns." (Emphasis added.)
Although defendant disputes that he made some of these statements, the trial court
found Kry s~tc~pa to be the more credible ~~ fi tness. Notably, although we
independently review the record to asses, the applicability of exceptions to first
amendment protection (Sulliti•an, 376 U.S. at 285), the trial court's decision to
accept testimony remains entitled to great deference (Hartrich, 2018 IL 121636,
¶ 13; People v. Czmningha~vr, 212 Ill. 2d 274, 280 (2004); People v. Phelps, 21 1 lll.
2d 1, 7 (2005) (citing Jackson v. Vi~~ginia, 443 U.S. 307. 319 (1979))).

~9

Regarding defendant's mental state, the trial court found that he did not
specifically intend to threaten the school when it acquitted him of attempted
disorderly conduct. The court's admonishment to defendant in convicting him of
disot-derly conduct, however, makes clear that it found that he was subjectively
aware of the threatening nature of his speech: '`You don't expect that she's going
to be alarmed and disturbed? You would be alarmed and disturbed. I submit that
you «ould be alarmed and disturbed if your child was there and you knew there
was such a call."

~' :~0

We agree. Defendant pointed out w-hat he perceived to be inadequacies in the
security measures Keith had taken by presenting graphic hypothetical scenarios
that, by design, communicated to the listener "a serious expression of an intent to
commit an act of unlawful violence to a particular individual or group of
individuals.'' Black, 538 U.S. at 359; Ashley, 2020 IL 123989, ~ 33. Whether
defendant intended to carry out the acts is irrelevant; he meant to intimidate
Krysztopa by impressing upon her " ' "the possibility that the threatened violence
will occur." ' "Ashley, 2020 IL 123989, ~ 33 (quoting Black, 538 U.S. at 359-60
(quoting R.A. 1!, 505 U.S. at 388)). Indeed, defendant's intention in presenting these
scenarios to Krysztopa was to alert her that they could happen in spite ~f the
measures Keith had taken. He conveyed his opinion about the insufficiency of these
measures by frightening Krysztopa.

¶ 31

Regarding the effect on the listener, the trial court found that Krysztopa was
alarmed and disturbed. In this situation, the only way she would have been alarmed
and disturbed is if she perceived defendant's questions and statements as a threat to
the school's safety. These statements are objectively threatening, given the
circumstances in which they were made—to a school administrator in her official
capacity at a school full of students and teachers five days after a highly publicized
mass shooting and during an era in which school administrators must be concerned
with individuals who pose such threats. Krysztopa was reasonable in perceiving
these statements and questions as a threat.

~` 32

In sum, defendant's questions and statements were objectively threatening in
the circumstances in which they were given. Defendant was subjectively aware of
the threatening nature of his speech. Krysztopa reasonably perceived defendant's
questions and statements as a threat. Vl-'e find that his speech constituted a true threat
unprotected by the first amendment.

¶ 33

Because we fiind that defendant's speech fell ~ ithin the "true threats" exception,
we need not address the parties' contentions regarding other exceptions to first
amendment speech protection. We next turn to the sufficiency of the evidence
presented.

34
~' 3~

Szrfliciency of the Et~idertce
"l'~'hen considering a challenge to a criminal conviction based upon the
sufficiency ofthe evidence, this court w- ill not retry the defendant." People v. Smith.
185 III. 2d 53~, 541 (1999). Rather, a revie~~ ing court will set aside a conviction
only where the evidence is so improbable or unsatisfactory that it creates a
reasonable doubt of the defendant's guilt. People v. Collins, 106 III. 2d 237, 261
(1985). Where the defendant challenges the sufficiency of the evidence used to
convict him, the reviewing court must determine, considering the evidence in the
light most favorable to the prosecution, whether any rational trier of fact could have
found the essential elements met beyond a reasonable doubt. .Smith, 185 Ill. 2d at
541 . All reasonable inferences are dra~~n in favor of a finding of guilt. Cunvrrvrgham,
212 111. 2d at 280.

- 12-

~ 36

The trier of fact determines the credibility of the witnesses, decides w-hat weight
to dive their testimony, resolves conflicts in the evidence, and draws reasonable
inferences from that evidence. Phelps, 21 1 111. 2d at 7 (citing Jackson, 443 U.S. at
319). Credibility determinations are entitled to great weight. ,Smith, 185 III. 2d at
542. "[n cases where the evidence is close *'~"", where findings of fact must be
determined from the credibility of the witnesses, a court of review will defer to the
trial court's factual fi ndings unless the} are against the manifest weight of the
evidence." Kulutu v. An/~e~a~,ti~c~r-Baetich ('os., 144 [II. 2d 425. 433 (1991); see also
Hcn•ti~ich, 2018 IL 121636. ¶ 13 (citing Kalutu. 14-~ III. 2d at 433). "[T]he testimony
of just one credible witness is sufficient for conviction." C'rty- of Chicago v. ,'Morris.
47 11I. 2d 226, 230 (1970).

37

The State needed to prove that defendant knowingly engaged in an act in such
an unreasonable manner as to alarm or disturb another and to provoke a breach of
the peace. See 7~0 ILCS 5/~6-1(a)(1) (West 2014). "'[T]he gist of the offense is
not so much that a certain overt type of behavior was accomplished, as it is that the
offender knowingly engaged in some activity in an unreasonable manner which he
knew or should have known would tend to disturb. alarm or provoke others.' "
Ruby. 40 lll. 2d at 397 (quoting III. Ann. Stat., ch. 38, ~ 26-I, Drafting Committee
Comments (Smith-Hurd 1967)). "The 'type of conduct alone is not determinative,
but rather culpability is equally dependent upon the surrounding circumstances.' "
In ~^e B.C., 176 Ill. 2d 536, 552 (1997) (quoting 720 ILCS 5/26-1, Committee
Comments-1961, at 337 (Smith-Hurd 1993)).

~ 38

As we described above, defendant assailed Krysztopa with a battery of morbid
and morose questions and statements about killing schoolchildren and sticking guns
in teachers' faces until the police arrived at his home. Although defendant disputes
that he made some of these statements, the trial court found Krysztopa to be the
more credible witness. Where the only witnesses to the substance of a conversation
are the two parties to that conversation and the trial court found one more credible
than the other, we decline to find that the court's credibility finding was against the
manifest weight of the evidence, especially where that witness had taken
contemporaneous notes and the trial court expressly noted that it observed "I~er
demeanor while testifying."

-13-

11 39

The trial court found the elements of disorderly conduct met. It found the nature
of the questions defendant asked to be unreasonable, that Krysztopa was alarmed
and disturbed, that she reasonably felt that way, and that defendant's questions and
statements provoked a breach of the peace by way of the luckdown and police
response. It found that defendant acted knowingly.

-10

We agree. Defendant knowingly engaged in the series of questions and
statements that form the basis for the conviction in an unreasonable manner that he
knew or should have known would cause alarm to a school administrator. He
unreasonably subjected Krys~topa, in her official capacity as a school
administrator, to a rapid-fire succession of graphic questions and statements about
such things as shooting schoolchildren and sticking guns in teachers' faces,
understandably alarming and disturbing her. His questions and statements directly
resulted in a breach of the peace by way of a school lockdown and police response.
We find that a rational trier of fact could conclude be}•ond a reasonable doubt that
defendant committed the offense cif disorderly conduct. V1~'e do not fired the e~ idence
so improbable oc unsatisfactory that it creates a reasonable doubt about his guilt.
We thus find the evidence sufficient and affirm defendant's conviction.

~14~

CONCLUSION

'' ~2

V~'e find that a rational trier of fact could conclude that the elements of
disorderly cunduct were proven beyond a reasonable doubt and that the evidence
was nit so improbable or unsatisfactory as to create a doubt about defendant's guilt.
We further find that defendant's questions and statements constituted a true threat
such that his speech was not protected by the first amendment to the United States
Constitution. The statute was thus constitutional as applied to defendant's conduct.

11 ~3

Affirmed.

~' 44

JI:STICE NEVILLE. dissenting:

45

1 agree with the court's recitation of the law governing the analysis of whether
speech is e~cempt from first amendment protection because it falls within the "true

threat" exception. I disagree, however, with the application of those controlling
principles to the facts presented in this case. Accordingly, I respectfully dissent.
'~ 4G

As this court unanimously recognized in People v. Ashley, the true threat
exception encompasses " 'statements where the speaker means to communicate a
serious expression of an intent to commit an act of unlawful violence to a particular
individual or group of individuals.' " 2020 IL 123989, T 33 (quoting G'ir~Jinin v.
Bluck, 538 U.S. 343. 359 (2003)). Vb'hen defendant's speech is analysed in
accordance with these strictures, it is clear to me that his communication with
Krysztopa does not constitute a true threat.

¶ 47

First, as Krysztopa's own testimony establishes, defendant expressly stated that
his reason for calling was to inquire about enrolling his son at the school and to
explore its security protocols and approach to potentially violent situations. There
is no e~ idence to the contrary or even suggesting that he called for any other
purpose. When considered in the contest of a parent's inquiry about the transfer
and enrollment of his ~r her child, questions regarding school safety and security
measures are not inherently unreasonable. In addition, K~ysztopa"s testimony
confirms that virtually all of defendant's communications regarding the possible
enrollment of his son at the school and its safetti procedures were expressed in the
form ofi questions—posing hypothetical situations and requesting answers as to
how such situations would be handled in order to protect the safety of all students.
The context of defendant's cotnmunicatioil--an inquiry about school enrollment—
and the hypothetical nature of many of his questions regarding student safety ai~e
critical in arse,sing whether his speech constitutes a true threat. See YG'att.s u. ~'nite~l
S~n~e.~~. 394 U.S. 705, 707-08 (1969) (recognizing that, in distinguishing a threat
from constitutionally protected speech, the context of the speech, its conditional
nature, and the reaction of the listeners are determining factors). In my view, these
factors are not properly considered by the court's opinion.

4K

Second, though I agree that the effect on the listener must be considered (see
supra ¶ 30 (citing Ashley, 2020 IL 123989, ¶ 67); supra ~ 31), I disagree with the
court's conclusion that defendant's questions and statements to Krysztopa were
"objectively threatening" (si+pra ~ 3 l ). If that were the case, Krysztopa's perception
of defendant's communication would be irrelevant. And even more important is the
fact that Krysztopa's own description of defendant's communication refutes the

- IS-

conclusion that it was a true threat. Her undisputed testimony confirms that
defendant did not make an immediate threat, and he never said he had a gun or that
he was coming to the school with a gun. Indeed, review of Kr}~sztopa's testimony
demonstrates that defendant never said that he intended to do anything at all.
Rather, defendant, a single father of a school-age child, expressed his concerns
about school safet}' and the security protocols in place in public schools that were,
in his view, inadequate to protect the students.
T 49

While defendant's questions and comments may be seen as excessive and
troubling, they do not contain the requisite elements of a true threat. Here, the
court's opinion equates defendant's questions and statements about school
shootings and safety measures with a serious expression of an intent to cummit an
act of unlawful ~ iolence to a particular individual or group of individuals. Compare
A.shley~, 2020 1 L 123989. ~' 33, with siip~-a ¶ 30. My colleagues in the majority agree
with the circuit court's characterization of defendant's communications as
unreasonable, alarming, and disturbing and, on that basis, find them to qualify as
true threats. But many types of communications may be unreasonable, alarming,
and disturbing without being true threats. What is missing in this case is evidence
of the critical element—a serious expression of intent to commit an act of unlawful
violence.

~ SO

A single communication with an advancement director about the possible
transfer of his son and the school's safety protocols served as the catal} st for the
prosecution. That communication--and the lack of any actual threat of violence—
is in stark contrast to the facts presented in Ashley. In that case, the defendant sent
numerous text messages specifically directed at the victim that included threats of
physical harm or death as well as a picture of a gun. Ashley, 2020 IL 123989, ~'~! 9.
99. For example, the defendant in Ashley sent the victim text messages stating "
love you too much to see a dead dummy. But [I] guarantee u this. 1 can make u
suffer. If [I] want to. """ You rite start to think more before u talk that s*** will
get u hurt or killed ***. *** [hope whoever you got it when I got guns' " Id. ¶ 9.
He also telephoned the victim and specifically threatened to "come over and kill'"
her, and everyone else who was present at her apartment, with a gun. Id. ' ~' S, 100.
Here, none of defendant's questions, or comments pertaining to hypothetical
situations involving possible school shootings are even remotely comparable to the
threatening speech that was at issue in Ashley. Unfortunately, the majority does not

u~

acknowledge the substantial evidence of threatening speech presented in Ashley, let
alone explain how defendant's speech meets the standard applied in Ashley.
'~ 51

Vl~'hile Krysztopa's apprehension and reaction to defendant's speech may be
perfectly understandable, this case considers only whether the State can criminalize
defendant's pure speech as a "true threat.'" Notably, this court and the United States
Supreme Court have narrowly construed the true threat exception to fi rst
amendment protection for pure speech. Bluck, 538 U.S. at 359; ~l.~~hley, 2020 IL
123989, ¶ 33. And for good reason—the first amendment broadly protects the rights
of all citizens to engage in meaningful discussion and debate on important societal
issues. such as the question of whether a school is adequately protecting its students
from the dangers of a potential mass shooting. Many of the complicated problems
facing our society have the potential to result in serious debate and, at times.
emotional rhetoric. Absent a serious expression of an intent to commit an act ofi
unlawful violence, however, even the most passionate speech cannot he
criminalized as a true threat without ~ iolating the first amendment. Black, 538 U.S.
at 359: Ashley, 2020 IL 123989, ~ 33; see also Wutts v. L'nitcd States, 394 U.S. 705,
707 (1969) (per curiam) (explaining that a statute that "makes criminal a form of
pure speech must be interpreted with the commands of the First Amendment clearly
in mind. What is a threat must be distinguished from what is constitutionall}
protected speech.").

1~ ~2

Nonetheless, the majority has allo~~ed the State to use the disorderly conduct
statute to criminalize defendant's speech because Krysztopa was alarmed or
disturbed by his speech. In other words, the majority has effectively eliminated the
well-settled requirement that a "true threat" include a serious expression of an intent
to commit an act of unlawful violence. Black, 538 U.S. at 359; Ashle}'. 2020 IL
123989, ~ 33. The majority's watered-down interpretation of a "true threat" has
never been endorsed by the United States Supreme Court and, until today's
decision, not by this court either.

~~ 53

Instead, ~~e have long recognized that the disorderly conduct statute should not
be used to punish persons " 'merely for peacefully expressing unpopular views.' "
People v. Ruby , ~0 III. 2d 392, 397 (1968) (quoting C'ox v. Louisiana, 379 l'.S. 536.
551 (1965)). The result reached in the majority's opinion, however, criminalizes
defendant's speech because certain of his questions or statements were v iewed by

- 17-

Krysztopa as alarming or disturbing. It is worth emphasizing that, according to
Krysztopa's undisputed testimony, defendant did not make any threats to her, and
he did not state that he had a gun or intended to come to the school. The majority's
analysis ignores the bare facts set forth in Krysztopa's testimony. Contrary to the
court's unfounded conclusion, Krysztopa did not perceive defendant's
communication as a threat.
54

~ 55
56

Based can the evidence in the record, defendant's questions and statements may
be both alarming and disturbing, but they are not true threats because they do not
contain a serious expression of an intent to commit an act of unlawful violence. See
Black, 538 U.S. at 359; Ashley, 2020 IL 123989, ¶ 33. Because defendant's
statements do not qualify as a true threat, they do not fall into the exception and are
not excluded from first amendment protection. Since his comments are protected
speech, they cannot be prosecuted under the disorderly conduct statute. I would find
the disorderly conduct statute to be unconstitutional as applied to defendant.
Consequently, I respectfully dissent.
JUSTICE KILBRIDE joins in this dissent.

APPENDIX
1:3

2019 IL App (2d) 160960
No. 2-16-0960
Opinion filed February 28, 2019
IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
THE PI~.OPLE OF THE STATE
OF ILLINOIS,

Appeal from the Circuit Court
of Winnebago County.

Plaintiff-Appellee,
v.

No. 15-CF-2814

RORY JOHN SWENSON,

Honorable
Fernando L. Engelsma,
Judge, Presiding.

Defendant-Appellant.

JUSTICE SPENCE delivered the judgment of the court, with opinion.
Justices McLaren and Jorgensen concurred in the judgment and opinion.
OPINION
¶1

In the direct appeal of his disorderly-conduct conviction, defendant, Rory John Swenson,

argues that the State failed to prove him guilty beyond a reasonable doubt and, further, that his
conduct was protected by the first amendment. We affirm.
¶2
T3

I. BACKGROUND
On February 8, 2016, defendant was charged by information with one count of attempted

disorderly conduct (attempt to convey a threat) (720 ILCS 5/8-4(a), 26-1(a)(3.5) (West 2014)),
one count of phone harassment (id. § 26.5-2(a)(2)), and one count of disorderly conduct (id.
26-1(a)(1)). The charges stemmed from a phone call that defendant made on December 7,

2019 IL App (2d) 160960
2015, to the Keith Country Day School (the school) and a conversation that he had with a school
employee.
¶4

The following evidence was presented at defendant's bench trial. Monica Krysztopa

testified that she was the director of advancement at the school.

On December 7, 2015,

defendant called the school and left avoice-mail message indicating that he wanted to discuss
admissions at the school. He provided a phone number and asked that his call be returned.
Shortly thereafter, Krysatopa returned defendant's call and spoke with him. Defendant told
Krysztopa that he was interested in enrolling his second-grade son at the school, and according to
Krysztopa, he "immediately went into a battery of questions about the protocol at [the] school for
handling things that were related to guns and shooting." He also told Krysztopa that he had
previously attended the school but had been kicked out. Krysztopa testified:
"[H]e basically wanted to know how prepared I would be if he or anyone who arrived on
our campus with guns? And do we have bullet proof windows at our secretary's desk?
Are our doors bullet proof?

Where do our faculty members stand when we do a

lockdown when there is an intruder in our building? Where do they stand in position in a
classroom? Do we arm our faculty? How would our faculty defend themselves against
an armed intruder? There were multiple questions."
Defendant also mentioned that "the United States was full of socialists and KGB members." He
asked about truancy laws. He also asked if she "knew the number of * * * school shootings that
had taken place in the United States and if [she] knew the success rate of shooters once they were
on campus." Defendant brought up the San Bernardino shooting, which had happened one week
happen
earlier. Krysztopa testified that defendant stated: "Is [the school] prepared if that would
prepared to have the
in your campus today?" Krysztopa testified: "lie asked me if I was

-2-

2019 IL App (2d) 160960
sacrificial blood of the lambs of our school on our, on my hands, if this were to happen and what
would I Flo?" Defendant asked, "if he were to show up at the campus with a gun what would be
the protocol of [the] school?" Defendant also asked if the students were given "PEZ dispensers
to defend themselves." FIe asked if the teachers carried guns, and he talked about "a number of
guns and their success rate in kill." He asked how long it would take police to get to the school
in the event of a shooting. At one point, defendant "was talking about when you shoot and kill
children and you're looking them in the eye and their innocence and the pillows of laying their
heads down at night acid then you have a shooter who shoots them in the face, you know, what
does that do for [her] as a school?" He asked her if she would "sniff the pillow." She stated that
she thought he wanted to kno~~ "if [slie] would sniff the pillow of their innocence after they've
been dead."
~5

Krysztopa testified that, based on her conversation with defendant, she believed that

defendant was on the school campus, particularly due to his comment about whether she was
`'prepared to have the blood of the sacrificial lambs on [her] hands that day and if [they] were
prepared to handling [sic] something like San Bernardino that day." In addition, defendant had
stated that he was familiar with the woods around the school campus because he had gone to
school there. Krysztopa described the campus as "very large" with "a lot of trees and wooded
areas behind a neighborhood."
¶6

Krysztopa testified that she texted the head of the school. She told her that someone was

talking about guns and the safety of the school, and she told her to call 911. 'The head of the
school called 911 and placed the school on a "soft lockdown." After an officer had been
dispatched to defendant's home and two officers were present at the school, the children were
dismissed.

-3-

2019 IL App (2d) 160960
~(7

Krysztopa testified that her conversation with defendant lasted 15 to 20 minutes.

Defendant ended the conversation by saying that "he had to go." During the conversation,
Krysztopa took notes. Krysztopa identified her notes as State exhibit No. 2, and she used them
to refresh her recollection while testifying. Krysztopa testified that the conversation left her
"very shook up."
¶8

On cross-examination, Krysztopa testified that defendant told her that his son was

currently enrolled in public school and that he was looking to move him to her school. He
mentioned that he was concerned about the lack of security at his son's current school. He never
told her that he had a gun; he asked what would happen if someone went to the school with a
gun. He asked her if she knew the success rate of a "hitter" who showed up at school with a gun,
and he told her that it was 80%. The school went into a soft lockdown because she believed that
defendant was on campus. But defendant never said that he was on campus.
¶9

Rockford police officer Michael Clark testified that, on December 7, 2015, at about 2:30

p.m., he was dispatched to defendant's apartment to investigate a report of a threatening phone
call that had been made to the school. When he arrived, he telephoned defendant using a phone
number that had been given to him by the dispatchers. No one answered the call, but about a
minute later, defendant exited the building and approached Clark. Clark patted down defendant
and told him that he was there to investigate a threatening phone call that had been made to the
school. Defendant admitted that he had made the call, He told Clark that he had called to find
out about security at the school. He also told Clark that he had asked if the school had armed
security guards and bulletproof glass. Clark placed defendant in the back of his squad car.
Defendant was not placed in handcuffs. At 3:20 p.m., after receiving a phone call from police
officer Mace, Clark arrested defendant.

-4-

?019 IL App (2d) 160960

¶ 10

On cross-examination, Clark testified that defendant cooperated with him at all times.

Defendant told him that he was considering transferring his son to the school and that he wanted
to know about the school's security. When defendant was arrested, he asked Clark to get his son
from his apartment. Clark asked defendant if there were any weapons in the apartment, and
defendant told him that there were not. Clark went into the apartment to get defendant's son. He
did not see any weapons in plain view.
~' 11

At the close of the State's evidence, defendant moved for a directed finding. The trial

court granted the motion as to the charge of phone harassment because it was Krysztopa who
called defendant. The trial court denied the motion with respect to the remaining charges.
¶ 12

Defendant testified that in December 2015 his son was seven years old and attended a

Rockford public elementary school. At that time, defendant was interested in enrolling him in a
"privatized institution of learning where they weren't bound by budgeting restrictions used as the
excuse not to protect our children." He left avoice-mail message with the school. He testified
that his intent in making the call was to enroll his son in the school. When Krysztopa called him
back, he told her why he wanted to enroll him in the school. According to defendant, he asked
first about financial aid and then about security. He testified:
"And then my other question was what is the security protocol, even about me
talking to you over the phone, about security protocols? If need be, when I come into fill
out the financial aid information, I can talk to you about it then is exactly what I said to
her."
Defendant testified that he never threatened anyone at the school. He never said that he was
bringing a weapon to the school. He did not have a firearm owner's identification card, nor did
he own any weapons.

-5-

2019 IL App (2d) 160960

¶ 13

In making its ruling, the court stated as follows. First, with respect to the credibility of

the witnesses, the court found Clark and Krysztopa to be credible. The court further found that
defendant's testimony, in parts, was also credible. To the extent that defendant's testimony
conflicted with Krysztopa's, the court found Krysztopa's testimony to be more credible. Next,
with respect to the charge of attempted disorderly conduct, in that defendant attempted to convey
a threat, the court found defendant not guilty. With respect to the charge of disorderly conduct,
however, the court found defendant guilty.

The court found that defendant knowingly

committed an unreasonable act given the statements that he made to Krysztopa and that
Krysztopa was alarmed and disturbed. The court stated:
"Would you as a parent have the right to know some things about the school?
Yes, but not in this fashion. The hallmark of this ruling here is reasonableness. We try to
look at things reasonably and this was just an unreasonable act. Would a reasonable
person be alarmed and disturbed? Yes. A reasonable person would be alarmed and
disturbed. And I so find.
I find that the act was done knowingly. Even if it wasn't done knowingly in the
sense of making a threat to the school but if the act was done knowingly and was the act
an unreasonable act? Yes. The conversation is outlined by a credible witness Krysztopa
and was unreasonable. It went too faz for that.
So it is disorderly conduct."
¶ 14

The trial court imposed a sentence of 12 months' probation. Following the denial of his

motion for a new trial, defendant timely appealed.
¶ 15

II. ANALYSIS

2019 IL App (2d) 160960

¶ 16

Defendant first argues that he was not proved guilty of disorderly conduct beyond a

reasonable doubt, because the State failed to prove that he acted knowingly.
¶ 17

A reviewing court will not set aside a criminal conviction unless the evidence is so

improbable or unsatisfactory that it creates a reasonable doubt of the defendant's guilt. People v.
Collins, 106 Ill. 2d 237, 261 (1985). When we review a challenge to the sufficiency of the
evidence, " 'the relevant question is whether, after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the essential elements of
the crime beyond a reasonable doubt.' " (Emphasis in original.) Id. (quoting Jackson v.
Virginia, 443 U.S. 307, 319 (1979)). The trier of fact is responsible for resolving conflicts in the
testimony, weighing the evidence, and determining what inferences to draw, and a reviewing
court ordinarily will not substitute its judgment on these matters for that of the trier of fact.
People v. Cooper, 194 I11. 2d 419, 431 (2000).
18

Defendant was charged with violating section 26-1(a)(1) of the Criminal Code of 2012

(Criminal Code) (720 ILCS 5/26-1(a)(1) (West 2014)), which provides as follows:
"(a) A person commits disorderly conduct when he or she knowingly:
(1) Does any act in such unreasonable manner as to alarm or disturb
another and to provoke a breach of the peace[.]"
To prove defendant guilty beyond a reasonable doubt of disorderly conduct, the State had to
prove that defendant "knowingly" committed an act in an unreasonable manner that he "knew or
should have known" would tend to alarm or disturb another so as to cause a breach of the peace.
People v. Raby, 40 Ill. 2d 392, 397 (1968).
¶ 19

Defendant argues that the State failed to prove that he acted knowingly.

More

specifically, defendant argues that the State was required to prove that he was consciously aware

-7-

20]9 IL App (2d) 160960

that his conduct was practically certain to alarm or disturb another and cause a breach of the
peace. We disagree.
¶ 20

In support of his argument, defendant relies on People v. Kotlinski, 2011 IL App (2d)

101251.

Kotlinski involved section 31-1(a) of the Criminal Code, which provided that "[a]

person who knowingly resists or obstructs the performance by one k~lown to the person to be a
peace officer *** of any authorized act within his official capacity commits a Class A
misdemeanor." (Emphasis added.) 720 ILCS 5/31-1(a) (West 2008). Relying on the statutory
definition of knowingly, this court found that the evidence had to establish that the defendant
was consciously aware that his conduct was practically certain to obstruct. Kotlinski, 2011 IL
App (2d) 101251, ¶ 54.
21

However, unlike the statute at issue in the present case, the statute at issue in Kotlinski

made clear that the word "knowingly" modified the words "resists or obstructs." Here, to accept
defendant's interpretation of the statute, we would have to find that the word "knowingly" in the
introductory clause of section 26-1(a)(1) modifies every element in the clause "[d]oes any act in
such unreasonable manner as to alarm or disturb another and to provoke a breach of the peace."
720 ILCS 5/26-1(a)(t) (West 2014). But, in Raby, our supreme court made clear that such an
interpretation was not intended. There, the court addressed a claim that the provision reached
conduct with first-amendment protection. It looked to the committee comments to determine the
provision's breadth, quoting them as follows:

~ A person acts knowingly or with knowledge of "[t]he result of his or conduct, described
by the statute defining the offense, when he or she is consciously aware that that result is
practically certain to be caused by his conduct." 720 ILCS 5/4-5(b) (West 2014).

-8-

20]9 IL App (2d) 160960

" `Section 26-1(a) is a general provision intended to encompass all of the usual types of
"disorderly conduct" and "disturbing the peace." Activity of this sort is so varied and
contingent upon surrounding circumstances as to almost defy definition.

***

In

addition, the task of defining disorderly conduct is further complicated by the fact that the
type of conduct alone is not determinative, but rather culpability is equally dependent
upon the surrounding circumstances. *** These considerations have led the Committee
to abandon any attempt to enumerate "types" of disorderly conduct. Instead, another
approach has been taken. As defined b}' the Code, the gist of the offense is not so much
that a certain overt type of behavior was accomplished, as it is that the offender
knowingly engaged in some activity in an unreasonable manner which he knew or should
have known would tend to disturb, alarm or provoke others. The emphasis is on the
unreasonableness of his conduct and its tendency to disturb.' " (Emphasis added.) Ruby,
40 Ill. 2d at 396-97 (quoting II1. Ann. Stat., ch. 38, ¶ 26-1, Committee Comments (SmithHurd 1964)).
Thus, although the scienter requirement for the doing of the act in an unreasonable manner is one
of knowingness, the scienter requirement for " `tend to disturb, alarm or provoke' " is " `knew or
should have known.' " Id. at 397; see People v. Albert, 243 Ill. App. 3d 23, 27 (1993) (because
the defendant "performed her shouting knowingly and also knew or should have known that such
noise likely would disturb people such as the complainant," she could properly be found guilty of
disorderly conduct).
¶ 22

Given the supreme court's clear statement, the question is whether the evidence was

sufficient to establish beyond a reasonable doubt that defendant knowingly committed an

2019 IL App (2d) 160960
unreasonable act that he knew or should have known would tend to alann or
disturb another so
as to provoke a breach of the peace. In making this determination,
we note the following:
"The types of conduct included within the scope of the offense of
disorderly conduct
almost defy definition. [Citation.) As a highly fact-specific inquiry, it
embraces a wide
variety of conduct serving to destroy or menace the public order
and tranquility.
[Citation.] [CJulpability *** revolves not only around the type of conduct, but
is equally
dependent upon the surrounding circumstances. [Citation.] Generally, to
breach the
peace, a defendant's conduct must threaten another or have an effect on the
surrounding
crowd. [Citation.] However, a breach of the peace can occur without overt
threats or
profane and abusive language. [Citation.] In addition, it need not occur in
public."
(Internal quotation marks omitted.) PenPle v. Pence, 2018 IL App (2d) 151102, ~! 17.
¶ 23

Here, viewed in the light most favorable to the State, the evidence allowed the trial
court

to infer that defendant had the requisite mental state. Although inquiring
generally about a
school's security protocol is not unreasonable in itself, the nature of defendant's
questions and
comments, considered in their totality, clearly exceeded the bounds of reasonableness.
For
instance, although defendant never stated that he was nn the campus, he let Krysztopa know
that
he was familiar with the campus. Defendant conveyed a detailed knowledge of guns and
school
shootings, and he asked what would happen "if he were to show up at the campus with a gun."
(Emphasis added.) Defendant reminded Krysztopa about the recent San Bernardino shooting
and asked, "Is [the school] prepared if that would happen in your campus today?" (Emphasis
added.) nefendant also asked how long it would take police to get to the school in the event of a
shooting. He asked whether there were bulletproof windows at the secretary's desk and whether
the doors were bulletproof. He asked where faculty members stood in the event of a lockdown

- 10-

2019 IL App (2d) 160960

and whether they were armed. Defendant warned Krysztopa that "the United States was full of
socialists and KGB members."

Defendant also made disturbing comments about shooting

children. Krysztopa testified that defendant talked "about when you shoot and kill children and
you're looking them in the eye." He asked her "if [she] would sniff the pillow of their innocence
after they've been dead." He also asked her "if [she] was prepared to have the sacrificial blood
of the lambs of [the] school *** on [her] hands." Thus, although defendant claims that he "was
only inquiring about the security at the school in relation to his concerns for his son's safety," his
comments as a whole were broader, morbid, and clearly inappropriate to his purported objective.
24

Viewing the evidence in the light most favorable to the State, we find that a rational trier

of fact could have found that defendant knowingly acted unreasonably and knew or should have
known that his act would alann or disturb Krysztopa so as to breach the peace.
1j 25

Defendant next argues that, because his words were not lewd, profane, obscene, libelous,

"fighting words," or "true threats," they were protected by the first amendment, such that the
disorderly-conduct statute cannot be read as criminalizing them. We disagree. Words that are
e;cpressed "in such an unreasonable manner as to provoke, make or aid in making a breach of
peace [do] not come within the protections of the first amendment." City of Chicago v. Morris,
47 Ill. 2d 226, 230-31 (1970). Indeed, as Justice Holmes famously observed, one cannot falsely
yell "fire" in a crowded theater. Schenck v. United States, 249 U.S. 47, 52 (1919).
¶ 26

In Morris, our supreme court relied on United States v. Woodard, 376 F.2d 136 (7th Cir.

1967). There, the defendants were convicted of disorderly conduct. Id. at 138-39. One of the
defendants, Ranier Seelig, was convicted for jumping to his feet during a congressional hearing
and shouting, " `Being an American citizen, I don't have to sit here and listen to these lies.' " Id.
at 139. He was warned to keep quiet. Id. When he continued his shouting, he was removed

2019 IL App (2d) 160960
from the building. Id. 'l~he Seventh Circuit rejected Seelig's argument that his
conduct was
protected by the first amendment. Id. at 142-43. The court stated:
"First amendment rights are `not absolute at all times and under all
circumstances.'
[Citation.] Conceding that the defendant Seelig was attempting to voice a protest against
the *** proceedings, Seelig had no constitutional right to voice his protest in the
manner
he adopted. The first amendment does not guarantee the right of a spectator
to shout
during a legislative hearing so as to disrupt the orderly processes of the proceeding."
Id.
at 142.
T 27

Here, defendant, like Seelig, argues that his conduct was protected by the
first

amendment in that he merely "had a conversation with Krysztopa about the security at
Keith
School." Phis is flagrantly disingenuous. As noted, defendant did not merely engage in a
civil
conversation concerning a matter of public interest.

Nor was he "peacefully expressing

unpopular views." (Internal quotation marks omitted.) Raby, 40 III. 2d at 397. Rather,
he
subjected Krysztopa to a lengthy interrogation that was disturbing, morbid, and well
beyond a
reasonable concern for school security, causing a police response and a school lockdown. As in
Woodard, although defendant's concern might have been reasonable, his manner of expressing it
was not, and he provoked a breach of the peace. See Pence, 2018 IL App (2d) 151102, ¶ 17 ("a
breach of the peace can occur without overt threats or profane and abusive language" (internal
quotation marks omitted)). It thus was not constitutionally protected.
¶ 28
¶ 29

III. CONCLUSION
For the reasons stated, we affirm the judgment of the circuit court of Winnebago County.

As part of our judgment, we grant the State's request that defendant be assessed $50 as costs for

-12-

2019 IL App (2d) 160960

this appeal. 55 ILCS 5/4-2002(a) (West 2016); see also People v. Nicholls, 71 Ill. 2d 166, 178
(1978).
¶ 30

Affirmed.

-13-

No.
IN THE
SUPREME COURT OF THE UNITED STATES

RORY JOHN SWENSON, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition For 4ti'rit Of Certiorari
To The Supreme Court Of Illinois

PETITION FOR WRIT OF CERTIORARI

NOTICE AND PROOF OF SERVICE
1~7~~. Kwame Raul, Atturney General, 100 W. Randolph St., 12th Floor, Chicago,
IL 60601, e~erve.criminalappealsvatg.state.il.us;
l~I~rilS~n Hite Ross, V~'innebago County State's Attorney, 400 V6'. State St., Suite
619, Rockford, 1L 61101, statesattoine5~i~wincoil.us;
l~Ir. Rory John Swenson, 4863 Flintridge Ct, Rockford, IL 61107
The unde~~signed, a member of the Bar of this Court, in cc~mpliznce with Rules 29 and
33.2, on August 28, 2020, mailed the original and ten topic, of the Motion for Leave to
Proceed In Forma Pauperis and Petition for Writ of Certiorari to the Clerk of the above
CouiY and submitted an electronic copy wing the Court's electronic filing system. On
th~~t same date, the undersigned served one copy of the ~~ime documents on opposing
counsel and on petitioner by depositing them in the United States mail, postage prepaid
end add~•e~sed as above. An electronic version way also served by email to opposing
counsel. All panties required to be served have been served.
Re.~pectfully~ submitted,
THOMAS LILIEN
Counsel of Record
Office of the State Appellate Defender
Second Judicial District
One Douglas Avenue, Second Floor
Elgin, IL 60120
(847) 695-8822
2ndDistrict~~?o5ad.~tate.il.us
COUNSEL FOR PETITIOI~F.R

No.
IN THE
SUPREME COURT OF THE UNITED STATES

RORY JOHN SWENSON, Petitioner,
~~
PEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition For Writ Of Certiorari
To The Supreme Court Of Illinois
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner reque~t5 leave to proceed in forma pauperis. The Petitioner has
previc~usl~~ been granted leave to proceed in forma pauperis in the court below. Counsel
was appointed to represent petitioner in the court below pursuant to 725 ILLS
105/10(a).
Respectfully submitted,

T OMAS A. LILIEN
Deputy Defender
Counsel of Record
ERIN S. JOHNSO:~T
Assistant Appellate Defender
Office of the State appellate Defender
Secc,nd Judicial District
One Douglas Avenue, Second Floor
Elgin, IL 60120
(847) 695-8822
2ndDistrict@osad.state.il.us
COUNSEL FOR PETITIONER

